 SIGAR                                                        Special Inspector General for
                                                               Afghanistan Reconstruction




                                                                              SIGAR Audit 13-3




         AFGHAN POLICE VEHICLE MAINTENANCE
         CONTRACT: ACTIONS NEEDED TO PREVENT
         MILLIONS OF DOLLARS FROM BEING
         WASTED




                                                                               JANUARY
                                                                               2013
SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance
                                                   January 2013



SIGAR
Special Inspector General for
                                                   AFGHAN POLICE VEHICLE MAINTENANCE CONTRACT: ACTIONS NEEDED TO
                                                   PREVENT MILLIONS OF DOLLARS FROM BEING WASTED


                                                   SIGAR AUDIT 13-3

Afghanistan Reconstruction
                                                   WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                                SIGAR found that CSTC-A unnecessarily paid $6.3 million from
                                                   April 2011 to September 2012 because the U.S. Army
Through November 2012, the
                                                   Contracting Command and CSTC-A based the firm fixed-price
United States provided more than
                                                   rates on vehicles purchased for the ANP, but they did not
30,000 vehicles to the Afghan
                                                   account for vehicles that had not been seen for service in over
National Police (ANP) and plans to
                                                   a year or had been destroyed. In addition, SIGAR estimated
distribute thousands more.
                                                   that CSTC-A paid at least $530,000 more than necessary
According to the U.S. Department
                                                   because the minimum number of vehicles in the contract
of Defense (DOD), the ANP is not
                                                   exceeded the number of vehicles serviced. Future option years
expected to be self-sufficient until
                                                   under the contract do not provide CSTC-A the flexibility to lower
late 2014.
                                                   the list of vehicles to be serviced if the number of vehicles
To account for the ANP’s current                   determined to need servicing is lower than the contracted
lack of capacity to conduct                        minimum or if the ANP begins to assume maintenance
logistics and maintenance on U.S.-                 responsibilities. Furthermore, because fuel allocations are
provided vehicles, the Combined                    based on the number of reported vehicles, removing destroyed
Security Transition Command-                       vehicles from the list of those to be serviced could result in
Afghanistan (CSTC-A) has relied on                 lowering the number of vehicles for which the ANP receives
contractors to perform these                       fuel allocations, resulting in decreased fuel costs. CSTC-A took
functions. On December 30,                         steps to address these concerns beginning on December 30,
2010, the U.S. Army Contracting                    2012 by removing 7,324 vehicles not seen for service in over a
Command, at the direction of                       year or destroyed. CSTC-A estimates that the changes will save
CSTC-A, awarded a firm fixed-price                 the government approximately $5.5 million a year.
contract valued at about $350
million for ANP vehicle
maintenance to Automotive
Management Services FZE (AMS).
This report assesses whether (1)
DOD paid for services for the
actual number of vehicles
receiving maintenance, (2) the
contractor performed within the
terms and conditions of the
contract, and (3) DOD agencies
provided effective oversight of the
contract.
We conducted our work in eight
provinces in Afghanistan from
January 2012 to December 2012
in accordance with generally
accepted government auditing                       Vehicles under repair at the Central Supply and Maintenance Facility in Kabul,
standards.                                         March 24, 2012.



      For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
  SIGAR photo of destroyed vehicles included in lists of vehicles to be serviced; at Herat Regional Maintenance Center,
  July 18, 2012.

  AMS generally performed and billed in accordance with the contract’s terms and
  conditions, but SIGAR found inaccuracies in AMS’s spare parts inventory. AMS generally
  met the contract-established 90 percent operational readiness rate for ANP vehicles.
  Additionally, AMS’s firm fixed-price invoices were billed at the agreed upon rates. For
  cost-reimbursable spare parts purchases, AMS invoiced the U.S. government for the
  price it paid on parts. However, at 11 sites
  visited by SIGAR, AMS’s electronic inventory
  management system did not accurately              WHAT SIGAR RECOMMENDS
  reflect spare parts on hand.                      SIGAR is making five recommendations
  CSTC- A and the Defense Contract                  to the Commanding General, CSTC-A, in
  Management Agency did not always conduct          coordination with the Commanding
  monthly oversight of AMS facilities. Of the       General, U.S. Army Contracting
  453 contracting officer representative            Command, to adjust contract terms to
  reports required between April 2011 and           more accurately reflect ANP vehicle
  August 2012, 121 reports (27 percent) were        maintenance requirements and to
  missing. One site did not receive any             improve inventory accuracy and
  oversight from a contracting officer’s            contractor oversight. In addition, the
  representative, two sites did not receive         report includes two recommendations
  oversight until June and July 2012, and other to the Commanding General, CSTC-A, in
  sites had large lapses of time with no            coordination with the Commander,
  reported oversight. Of the 453 reports            Defense Contract Management Agency
  required, 170 were based on site visits, 121      Afghanistan, to improve contract
  were conducted by phone or email, and 41          oversight. CSTC-A concurred with our
  noted that an audit could not be performed.       recommendations and noted steps it is
  While the lack of site visits was largely due to taking to address them. Comments
  logistical and security constraints, SIGAR        from CSTC-A are reproduced in
  found that many reports lacked support for        appendix IV.
  why an audit could not be performed.

For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 17, 2013


Department of Defense Commands and Agencies:


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of a Combined Security Transition Command–Afghanistan
(CSTC-A) contract for maintaining Afghan National Police (ANP) vehicles under the Afghanistan
Technical Equipment and Maintenance Program.
This report includes five recommendations to the Commanding General, CSTC-A and
Commanding General, U.S. Army Contracting Command (ACC), to adjust contract terms to more
accurately reflect ANP maintenance requirements and to improve inventory accuracy and
contractor oversight. In addition, the report includes two recommendations to the
Commanding General, CSTC-A, in coordination with the Commander, Defense Contract
Management Agency (DCMA) Afghanistan, to improve contract oversight.
We received formal comments from CSTC-A, which are reproduced in appendix IV. CSTC-A
concurred with all seven recommendations. ACC incorporated its comments with CSTC-A’s and
concurred with recommendations one through five. DCMA Afghanistan submitted technical
comments and concurred with recommendations six and seven. SIGAR conducted this
performance audit under the authority of Public Law No. 110-181, as amended; the Inspector
General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction
                List of Addressees

                The Honorable Leon E. Panetta
                Secretary of Defense

                General James N. Mattis
                Commander, U.S. Central Command

                General John R. Allen
                Commander, U.S. Forces‐Afghanistan, and
                  Commander, International Security Assistance Force

                Lieutenant General Daniel P. Bolger
                Commanding General, NATO Training Mission‐Afghanistan/
                   Combined Security Transition Command‐Afghanistan

                Major General Camille M. Nichols
                Commanding General, U.S. Army Contracting Command

                Charles E. Williams
                Director, Defense Contract Management Agency




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance              Page ii
                                             TABLE OF CONTENTS


Background .................................................................................................................................................................. 2 
About $6.8 Million Was Spent on Vehicles Not Seen for Maintenance in over a Year or Confirmed Destroyed,
    and CSTC-A May Pay More Than Necessary in Future ...................................................................................... 4 

AMS Generally Performed and Billed For Services in Accordance with the Contract and Met Contract-
    Established Readiness Rates, but Improvements Are Needed in Spare Parts Management ........................ 8 
U.S. Government Oversight and Records Could Be Enhanced ............................................................................... 11 

Conclusion.................................................................................................................................................................. 14 
Recommendations .................................................................................................................................................... 14 
Agency Comments ..................................................................................................................................................... 15 

Appendix I - Scope and Methodology ....................................................................................................................... 16 
Appendix II - Summary of Modifications to ANP A-TEMP Contract W52P1J-11-C-0014 ........................................ 19 
Appendix III - AMS Maintenance Levels and Sites as of November 2012 ............................................................. 20 
Appendix IV - Agency Comments ............................................................................................................................... 21 
Appendix V - Acknowledgments ................................................................................................................................ 24 


TABLES

Table 1 - Estimated Contract Value (in millions USD) and Minimum Number of Vehicles to Be Serviced, by Year
     ............................................................................................................................................................................. 2 

Table 2 - Projected Results of SIGAR Inventory at Selected AMS Facilities ........................................................... 10 
Table I - Number of Lines Items Selected ................................................................................................................ 17 
Table II - Summary of Modifications to ANP A-TEMP Contract W52P1J-11-C-0014 .............................................. 19 

Table III - AMS Maintenance Levels and Sites as of November 2012 ................................................................... 20 


FIGURES

Figure 1 - AMS Facility Locations and Types .............................................................................................................. 3 
Figure 2 - Density List Compared to Contracted Vehicle Maintenance .................................................................... 5 
Figure 3 - Destroyed High Mobility Multipurpose Wheeled Vehicle in Helmand SMC ............................................. 7 

Figure 4 - Destroyed Vehicles in Gardez RMC............................................................................................................ 7 
Figure 5 - COR Reports Performed, by Type ............................................................................................................. 13 




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                                                                              Page iii
ABBREVIATIONS & ACRONYMS

             A-TEMP                    Afghanistan Technical Equipment and Maintenance Program
             ACC                       U.S. Army Contracting Command
             AMS                       Automotive Management Services FZE

             ANP                       Afghan National Police
             ANSF                      Afghan National Security Forces
             COR                       contracting officer’s representative
             CSTC-A                    Combined Security Transition Command-Afghanistan
             DCAA                      Defense Contract Audit Agency
             DCMA                      Defense Contract Management Agency

             FMS                       Foreign Military Sales
             IJC                       ISAF Joint Command
             ISAF                      International Security Assistance Force

             PCO                       procuring contracting officer
             QAR                       quality assurance representative
             RLC                       Regional Logistic Center

             RMC                       Regional Maintenance Center
             SIGAR                     Special Inspector General for Afghanistan Reconstruction
             SMC                       Satellite Maintenance Center




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                       Page iv
A key objective of coalition efforts in Afghanistan has been to build the Afghan government’s capacity to
provide for its own security by training and equipping the Afghan National Security Forces (ANSF), which consist
of the Afghan National Army and the Afghan National Police (ANP). Between fiscal years 2002 to 2012,
Congress appropriated $52.15 billion for the Afghanistan Security Forces Fund to equip, train, base, and
sustain the ANSF. The Combined Security Transition Command–Afghanistan (CSTC-A) in Kabul, Afghanistan, is
the U.S. entity responsible for planning, programming, and implementing training and equipping efforts for the
ANSF. Through November 2012, the United States provided over 30,000 vehicles to the ANP and plans to
distribute thousands more. According to the Department of Defense (DOD), because initial U.S. assistance
focused primarily on building the ANP, the development of Afghan logistics did not start until mid-2011, and
the ANP is not expected to be self-sufficient in its logistics capability until late 2014.
On December 30, 2010, the U.S. Army Contracting Command (ACC) awarded a firm fixed-price contract worth
approximately $350 million1 to Automotive Management Services FZE (AMS),2 to support ANP vehicle
maintenance under the Afghanistan Technical Equipment and Maintenance Program (A-TEMP). The contract
also authorizes AMS to procure spare parts, estimated at $33 million per year. Such purchases are handled
on a cost-reimbursable basis.
ACC has primary responsibility for managing the AMS contract and processing invoices for payment, but it
delegated certain contract administration functions to the Defense Contract Management Agency (DCMA). In
addition, ACC and DCMA rely on CSTC-A contracting officer representatives (COR) for contractor oversight and
inspection. In June 2011, the DOD Office of Inspector General identified deficiencies in oversight of a prior
ANA vehicle maintenance contract, including the contractor’s inability to account for procured spare parts.3
The objectives of this audit were to assess whether (1) DOD paid for services for the actual number of vehicles
receiving maintenance; (2) the contractor performed these services within the terms and conditions of the
contract, and (3) DOD agencies provided effective oversight of the contract.
To accomplish these objectives, we reviewed and analyzed the vehicle maintenance base-year contract and
modifications, as well as contractor invoices and ACC payment data. We analyzed DCMA oversight reports
submitted by CORs and reviewed AMS production data and reports. Additionally, we visited 11 of the 27 AMS
maintenance facilities in 8 provinces, where we conducted physical inventories and statistical random samples
of spare part line items and validated their quantities.4 We conducted our work in Kabul, Kandahar, Balkh,
Helmand, Kunduz, Paktika, Gardez, and Herat provinces in Afghanistan from January 2012 to December 2012
in accordance with generally accepted government auditing standards. A more detailed discussion of our
scope and methodology is in appendix I.




1
  Contract values assume the base year and 4 option years are exercised for each contract. The contract is currently in its
first option year ending in December 2012.
2CSTC-A used an adaptation of the Foreign Military Sales (FMS) program through the Defense Security Cooperation Agency
and the U.S. Army Security Assistance Command to award the contract. DOD refers to this adaptation of FMS as “pseudo-
FMS.”
3 Audit of the Afghanistan National Army Equipment Maintenance Apprenticeship and Services Program Contract,

Inspector General, Department of Defense, Report No. 2011-073, June 14, 2011.
4 At time of our audit, AMS had 27 facilities throughout Afghanistan. In October 2012 CSTC-A shut down all 8 Forward

Support Teams, reducing the total number of sites to 19.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                          Page 1
BACKGROUND

Through A-TEMP, CSTC-A aims to provide fleet vehicle maintenance support for the ANSF, while helping the
ANSF develop the capacity to manage vehicle maintenance on its own. On December 30, 2010, under the
direction of CSTC-A, ACC awarded AMS a contract to provide vehicle maintenance, spare parts procurement,
supply chain management, and warehouse management at sites across Afghanistan. The previous vehicle
maintenance support contract provided similar types of vehicle maintenance and spare parts support in
Afghanistan from 2006 to 2011. Following a 3-month mobilization period, AMS began work in April 2011. The
AMS contract consists of 1 base year plus 4 option years and currently covers 19 service facilities.5 Although
the base and option years have set prices, using contract modifications, ACC adjusts the contract’s cost by
adding and removing service facilities, changing the contractor’s level of effort based on the number of
vehicles, and authorizing additional spare parts beyond the original estimated amount. These modifications
obligate additional funding to the contract. Table 1 shows the estimated value of the contract by year and the
minimum number of vehicles to be serviced each year. Appendix II provides additional information on the base
contract and modifications to the contract.

Table 1 - Estimated Contract Value (in millions USD) and Minimum Number of Vehicles to Be Serviced, by Year
                        Base Year         Option #1          Option #2           Option #3          Option #4
                      (April 2011-        (Calendar          (Calendar           (Calendar          (Calendar              Total
                  December 2011)         Year 2012)         Year 2013)          Year 2014)        Year 2015)

Estimated                     $65.6             $68.6              $70.2              $71.8               $73.5          $349.7
Amount

Vehicle                      18,000           22,000              24,000             26,000             28,000
Minimum
Source: ACC contract number W52P1J-11-C-0014

According to the March 2011 A-TEMP Performance Work Statement, the primary objective of A-TEMP is to
assist the ANP with vehicle maintenance until the ANP is able to establish a vehicle maintenance program of
its own. Under the contract, AMS is responsible for providing management, expertise, personnel, equipment,
transportation, fuel, tools, life support, supply chain management, and security. AMS provides both scheduled
and unscheduled maintenance of ANP vehicles. Scheduled maintenance includes inspection, subsequent
repair, and preventive maintenance checks and services.6 Unscheduled maintenance includes repairs due to
battle damage and accidents.
AMS provides vehicle maintenance at 19 sites throughout Afghanistan. As of October 2012, AMS had one
national maintenance level facility called the Central Maintenance and Supply Facility, five Regional
Maintenance Centers (RMC), four Regional Logistic Centers (RLC), and nine Satellite Maintenance Centers
(SMC). Figure 1 shows AMS locations, and appendix III contains additional detail on the levels of maintenance



5   The base year of the contract was for the period April 2011 through December 2011.
6 According to the contract, scheduled maintenance service and inspection, at a minimum, will cover the following system
and component checks: wheels and tires for pressure and tread integrity; starting and charging systems; electrical systems
and wiring harnesses; heating and air conditioning systems; steering linkage components; U-Joints and drivelines;
suspension system; hoses and belts; exhaust, fuel, ignition, and hydraulic systems; all fluid levels and fluid conditions; all
lights; windshield, windows, mirrors, and wipers; structural condition and bodywork integrity; leaks; brake systems; gauges,
speedometers, warning devices, etc.; engine transmission and gearboxes; and fluid changes, filters, and lubrication.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                           Page 2
services and the sites at which each level of maintenance is being performed. AMS also provides mobile
maintenance teams to the ANP. In addition to the fixed-price maintenance portion of the contract, AMS
procures vehicle spare parts on a cost-reimbursable basis, which it distributes and maintains through a supply-
chain management system.

Figure 1 - AMS Facility Locations and Types




  Source: AMS

The ACC procuring contracting officer (PCO) is responsible for contract management and invoice processing,
but delegates some contract administration functions to a DCMA administrative contracting officer (ACO).
DCMA serves as the contract management office providing quality assurance oversight critical to mission and
contract administration success. Headquartered in Kabul, DCMA has quality assurance representatives (QARs)
throughout Afghanistan. These QARs perform quality assurance duties designed to hold the contractor
accountable for technical performance and compliance with contractual requirements. The QARs conduct
independent examinations and reviews of contractor services and processes in accordance with the
requirements of the contract. According to the February 2011 DCMA Theater Quality Plan, QAR responsibilities
require “boots-on-ground” interaction with contractor personnel and contracting officer’s representatives
(CORs) on a continuous basis. According to the plan, DCMA considers documenting contractor compliance
with contractual requirements essential for sustaining desired contractor behavior and performance. Other
U.S. and international organizations also provide contract oversight.
       CSTC-A provides a primary COR and additional CORs for audits and site inspections for general and
        national maintenance sites.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                              Page 3
           The International Security Assistance Force (ISAF) Joint Command (IJC) provides some CORs for
            organizational maintenance sites.
           The Defense Contract Audit Agency (DCAA) approves all spare part invoices after concurrence with the
            ACC PCO and CSTC-A Training Program Support Office Program Management/Finance team. The PCO
            approves all firm fixed-price invoices with concurrence by the Training Program Support Office.
In accordance with the contract, ACC reimburses AMS on a firm fixed-price basis for all but two activities under
the contract.7 The purchase of spare parts and Defense Base Act insurance8 are reimbursed at cost with no
profit markup. Otherwise, AMS receives a fixed price for performing a set of services (defined in the contract
and Performance Work Statement) for its services. According to the contract, AMS’s reimbursement can
increase when the number of vehicles authorized for repair increases by at least 5 percent.9 These increases
are referred to as “surges,” and such surges are awarded through contract modifications. Surges affect the
monthly charge of every service center and, when awarded, generally last through the end of the contract year.
The increased contract charges resulting from these surges include the monthly firm fixed-price rate, Defense
Base Act insurance rates and a one-time mobilization charge. If ACC elects to award an additional option year
to the contract, the minimum vehicle number starts at the predetermined amount shown in table 1, regardless
of whether the actual number of vehicles on the density list is lower.10


ABOUT $6.8 MILLION WAS SPENT ON VEHICLES NOT SEEN FOR MAINTENANCE
IN OVER A YEAR OR CONFIRMED DESTROYED, AND CSTC-A MAY PAY MORE
THAN NECESSARY IN FUTURE

Based on our review of AMS maintenance data and density lists, we found that CSTC-A unnecessarily paid
approximately $6.8 million to AMS for vehicle maintenance services. This amount includes payments to AMS
totaling $6.3 million in five surges from April 2011 to September 2012. According to CSTC-A officials, the
density list was based on the number of vehicles purchased for the ANP, but CSTC-A did not remove vehicles
not seen for service in over a year or those vehicles confirmed by the contractor as destroyed.11 In addition to
surge payments, we estimate CSTC-A spent at least another $530,000 on such vehicles during option year 1,
and CSTC-A may pay more than necessary for future services. The contract allows ACC to increase the vehicle
density at any point; however, future option years do not allow ACC the flexibility to decrease the number of
vehicles serviced below 26,000 vehicles in option year 3 and 28,000 vehicles in option year 4.




7 A firm fixed-price contract provides for a price that is not subject to any adjustment based on the contractor’s cost
experience in performing the contract. A fixed-price contract with economic adjustments based on established prices
allows price adjustments based on an agreed-upon schedule that can vary on prices, actual costs, or the changing costs of
materials and labor. This contract type places maximum risk on the contractor and full responsibility for all costs and
resulting profit and loss, provides maximum incentive for the contractor to control costs and perform effectively, and
imposes a minimum administrative burden upon the contracting parties.
8The Defense Base Act of 1941, as amended, requires federal government prime contractors and subcontractors to
provide workers’ compensation insurance for employees who work overseas.
9   The contract assumes an increase in ANP fleet size of 18,000 vehicles in 2011 to at least 32,000 vehicles in 2015.
10The density list is the official list of vehicles authorized for repair under the contract. CSTC-A maintains the density list,
and the PCO at ACC has final authority to approve changes.
11   Vehicles not seen for service in over a year also include vehicles never seen by the contractor.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                                Page 4
Figure 2 shows the number of vehicles on the density list, the contracted minimum number of vehicles to be
serviced, and the actual number of vehicles requiring service when accounting for vehicles not seen in over a
year or confirmed destroyed.

          Figure 2 - Density List Compared to Contracted Vehicle Maintenance




            Source: SIGAR Analysis of CSTC-A, ACC, and contractor data.


$6.3 Million in Surge Payments Not Justified
CSTC-A paid AMS for five surges totaling $6.3 million through September 2012─$2.4 million in the base year
and $3.9 million in the first option year. Based on our comparison of the official density lists and AMS repair
information, thousands of vehicles on the density lists at the time of surge awards had not been seen in over a
year or had been confirmed destroyed by AMS. At the end of the base year in December 2011, and after each
surge in 2012, we reviewed the official density lists, and for each vehicle compared it to AMS maintenance
data. In every instance, we found that when removing from the list those vehicles not seen in over a year,
never seen, or destroyed, the number of vehicles serviced by the contractor did not justify the increased costs
of a surge. For example:
    ‐   For the base year, we estimate that when removing vehicles that had not been seen in over a year,
        had never been seen, or had been destroyed from the density list, approximately $2.4 million in surge
        charges was not warranted. During the base year, ACC awarded surges in August 2011 and October
        2011. In the final month of the base year, December 2011, 21,398 vehicles were on the density list.
        Of that number, at least 5,098 vehicles were reported as not having been seen for maintenance in




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                              Page 5
           over a year or having been destroyed.12 The remaining 15,963 vehicles were below the range of
           18,000-18,999 for the base rate under the contract. Therefore, no surge was necessary during the
           base year.

       ‐   For the first option year, we estimate that when removing from the density list those vehicles that had
           not been seen for maintenance in over a year or had been destroyed, the $3.9 million in surge
           charges through September 2012 was also not warranted. Through September 2012, ACC awarded
           surges in April, May, and September 2012.13 We found that no surge was necessary through
           September 2012 of option year 1. Specifically:
                In April 2012, ACC awarded a 5-percent surge because the density list reached 24,244 vehicles.
                 However, when taking into account 5,787 vehicles the contractor had not seen for
                 maintenance in over a year or reported as destroyed, the number of vehicles that had actually
                 received service at this time totaled 18,457, thereby putting the number of vehicles below the
                 first option-year minimum vehicle range of 22,000-22,999.
                In May 2012, ACC awarded a modification that increased the total surge value by 15 percent.
                 According to the contract modification, the density list contained 26,566 vehicles. However, at
                 least 7,373 had not been seen for maintenance in the past year or had been destroyed, and
                 the remaining 19,192 vehicles were below the 22,000-22,999 range for the lowest rate under
                 the contract.
                In September 2012, ACC awarded a modification that increased the density list to 27,521
                 vehicles. However, when accounting for vehicles not seen for maintenance in over a year or
                 destroyed, the remaining 20,651 vehicles were below the 22,000-22,999 range for the lowest
                 rate under the contract.
According to CSTC-A officials, the ANP is not bringing vehicles in for service for a variety of reasons, including
security concerns and vehicles operating in remote areas. They further noted that, because fuel allocations
are based on the number of vehicles on the density list, the ANP is reluctant to report destroyed vehicles
because lowering the number of vehicles would reduce fuel allocations. According to CSTC-A officials, although
the ANP is provided a list of vehicles that are late for service, the Ministry of Interior has not ensured that such
vehicles are brought in for service. Another reason appears to relate to a lack of cooperation between different
ANP organizations.14 For example, during one of our site visits, an Afghan Uniform Police officer stated that his
vehicles were unable to access a nearby AMS site because the Afghan Border Police controlled the facility and
denied his vehicles access. A CSTC-A official confirmed the Afghan Uniform Police officer’s statement, stating
that CSTC-A has received similar reports throughout Afghanistan. As a result, CSTC-A plans to have
representatives from each police organization located at Regional Logistic Centers to resolve access issues.
During our site visits to AMS facilities, we recorded the vehicle identification number for 14 destroyed vehicles
and compared this information to the density list. In all cases, we found that the destroyed vehicles were on
the September 2012 density list. Figures 3 and 4 provide examples of destroyed vehicles that were on the
September 2012 density list.




12 Of the 21,398 vehicles on the density list, we were able to reconcile the status of 21,061 vehicles with AMS

maintenance data.
13   The September 2012 modification retroactively awarded a 5-percent surge to AMS for June, July, and August 2012.
14The ANP is comprised of organizations known as “pillars,” including the Afghan Border Police, Afghan Uniform Police, and
Afghan National Civil Order Police.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                        Page 6
Figure 3 - Destroyed High Mobility Multipurpose                  Figure 4 - Destroyed Vehicles in Gardez RMC
Wheeled Vehicle in Helmand SMC




Source: SIGAR, July 4, 2012                                      Source: SIGAR, July 22, 2012

During our audit, CSTC-A took limited action to improve the accuracy of the density list. For example, since
March 2012, CSTC-A adds vehicles to the density list only when it receives confirmation from AMS that a
vehicle has appeared at an AMS facility for the first time. This new approach is in contrast to the previous
practice of including a vehicle on the density list at the time of purchase. However, because CSTC-A has not
removed all vehicles not serviced in over a year or destroyed from the current density list, AMS still received
payment for unnecessary surges.
In August 2012, we discussed with the current PCO our concern that vehicles that had not been seen for
maintenance in over a year or had been destroyed remained on the density list, which resulted in such vehicles
remaining part of AMS’s firm fixed-price billings.15 The PCO replied that the government has the flexibility to
surge and “de-surge” based on the density list and agreed that vehicles never seen by the contractor or
confirmed destroyed should be removed from the density list. Moreover, we noted that removing vehicles from
the density list could have the added benefit of reducing the number of vehicles for which the ANP receives
fuel allocations, thereby further reducing costs.16
On September 26, 2012, the PCO notified us that she concurred with our findings and was in the process of
working with CSTC-A to revise the density list to remove vehicles that had not been seen for maintenance in
over a year or had been destroyed. The PCO also noted that if any of the vehicles removed from the density list
appeared for service at a later date, the contract has the flexibility to allow these vehicles to be added back to
the density list. On October 18, 2012, the PCO notified AMS that the government was restructuring the density
list to remove vehicles with no visibility or service for 12 months or more, vehicles missing or never seen for
service, and vehicles that have been destroyed but remain on the property books. These revisions would have
decreased the October density list to 20,790 eligible vehicles and lower the firm fixed-price rate.




15   Contract costs can only be reduced to the base rate of a given year.
16 On September 12, 2012, following an interim report on Afghan National Army fuel concerns, we initiated an audit to

review ANP fuel. See SIGAR 12-14, Interim Report on Afghan National Army Petroleum, Oil, and Lubricants, September 10,
2012




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                    Page 7
Future Option Years Need Restructuring
Due to a lack of flexibility in how option years are treated under the terms of the contract, we estimate that, in
addition to surge awards, CSTC-A spent at least an additional $530,000 during option year 1 on vehicles not
serviced in more than a year, never seen, or confirmed destroyed. For each option year, ACC established
minimum firm fixed-price rates based on a projected number of ANP vehicles to be maintained. However,
these projections are higher than what the contractor has seen or likely will see in future years. As shown in
table 1, CSTC-A pays for a minimum number of vehicles maintained for each contract year regardless of
whether the density list is lower than that minimum number. At the time the contract was awarded, neither
CSTC-A nor ACC took into account vehicles not serviced in over a year or destroyed or the ANP’s future
maintenance ability. Under the terms of the contract, option year 1 forced the government to pay AMS at a
rate of 22,000 vehicles maintained per year. However, when vehicles not seen in over a year or destroyed are
taken into account, only 15,963 vehicles were actually maintained. If ACC had had the flexibility to adjust the
terms of the option year to pay at rates below 22,000 vehicles to be closer to the amount of vehicles actually
maintained, we estimate that CSTC-A could have saved at least $530,000 in option year 1.
In addition, CSTC-A is currently training the ANP to conduct maintenance in the future. If transition to ANP-
provided maintenance occurs, the number of vehicles maintained by AMS is likely to decrease. Nevertheless,
ACC currently lacks any flexibility to revise the terms of the option years in the AMS contract to account for
fewer numbers of vehicles actually maintained. In option years 3 and 4, the minimum number of vehicles
maintained—on which the firm fixed-price rate is based—increases even further, to a minimum of 26,000
vehicles in option year 3 and 28,000 vehicles in option year 4.


AMS GENERALLY PERFORMED AND BILLED FOR SERVICES IN ACCORDANCE
WITH THE CONTRACT AND MET CONTRACT-ESTABLISHED READINESS RATES,
BUT IMPROVEMENTS ARE NEEDED IN SPARE PARTS MANAGEMENT

AMS generally performed maintenance services and billed for the fixed-price and reimbursable aspects of the
contract in accordance with the contract’s terms and conditions. Further, AMS appears to have met contract-
established operational readiness rates with respect to its maintenance of ANP vehicles. Although AMS’s
spare parts invoices were generally billed within the terms of the contract, AMS site records misstated the line
item spare parts inventory at various sites we visited. On average, we found that at the 11 sites visited, AMS’s
electronic supply chain management system did not accurately reflect spare parts line items on hand. In
commenting on a draft of the report, CSTC-A and ACC noted that AMS is currently conducting a 100-percent
inventory; the COR and DCMA are adding inventory review to audits; and CSTC-A and DCMA will work with ACC
to request monetary consideration for broken spare parts identified in the 100-percent inventory.


AMS Appears to Meet Contract-Established Operational Readiness Rates
Based on AMS-provided performance data, our site visits, reviews of COR reports, and discussions with CSTC-A
and contractor officials, we determined that AMS is generally performing maintenance in accordance with the
contract’s requirements. According to the contract, the contractor is required to maintain a 90-percent
operational readiness of all ANP vehicles. Vehicles that are not brought in by the ANP are not counted against
the contractor’s operational readiness because they are assumed to be operational. Operational readiness is
defined in the contract as the calculation of the total number of fielded vehicles (“fielded fleet”) less the
number of known non-mission-capable vehicles, divided by the number of vehicles in the fielded fleet. Non-
mission-capable vehicles are those vehicles that the contractor has received for repair from the ANP but for
which repairs have not been completed. All other vehicles are considered to be mission capable. We reviewed
AMS’s weekly operational readiness reports and found that the contractor consistently reported above the 90-




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                 Page 8
percent operational readiness requirement. According to CSTC-A officials, the contractor submits all reports in
a timely manner, has a well-organized and well-run shop, and performs the required repairs.


Invoices Were Generally within Contract Terms and Conditions
Based on our examination and analysis of the contract and AMS firm fixed-price and spare parts invoices, we
determined that AMS generally invoiced in accordance with the terms of the contract. From April 2011 through
September 2012, AMS submitted 24 firm fixed-price invoices totaling approximately $50.4 million. We
reviewed each item charged on each invoice and compared each charge to the terms of the contract to
determine its allowability and whether it was billed according to the terms of the contract. In all cases, we
noted no discrepancies between what the terms of the contract allowed and what AMS billed on the firm fixed-
price portion.17
From April 2011 to September 2012, AMS received payment on 34 invoices for spare parts totaling about
$26.5 million of the $33 million in base contract year obligations to the contract. We selected a judgmental
sample of the five largest invoices in the base contract year, totaling over $10.1 million. In all cases, the
contractor provided CSTC-A with the support for the charges, including receipts. We conducted a review of
every item charged and did not identify any material differences between what AMS showed as paying for
spare parts and what AMS invoiced the government.
During the course of our site visits, we identified windshields that were broken by AMS. In discussions with
AMS officials at the site, they stated that the windshields were likely broken in transit while in AMS’s
possession of the parts. According to ACC and CSTC-A officials, the government has never received a credit for
parts broken by the contractor. CSTC-A is addressing this issue by having CORs inspect certain parts that are
susceptible to breakage, such as windshields, and note any damaged items.


Spare Parts Line Item Inventories Were Inaccurate at Sites Visited
AMS site records misstated its spare parts inventory at all 11 sites we visited. According to the contract, AMS
is required to have a commercially available, computerized system to provide materiel management for the
ordering and tracking of spare parts. At locations other than forward support teams, AMS uses a computerized
system called FASTRAX, which maintains spare parts inventories as a set of line items. As an example, multiple
engines would be counted as one line item. We found that FASTRAX did not accurately reflect the spare parts
on hand. We visited 11 of the 27 AMS facilities in existence at the time of our work,18 conducted 12 separate
inventories,19 and found that all 11 sites had inaccurate inventories, with the percentage of incorrect line items



17 During the course of its invoice reviews, DCAA conducted a review of transportation and rental charges that AMS charged

as a cost-reimbursable item to transport parts within Afghanistan. DCAA determined that these items were a part of the
firm fixed-price effort of the contract and, therefore, should have been included in AMS’s fixed monthly rate. Among the
cost reimbursements, DCAA identified $373,844.92 in transportation costs, $30,163.43 in crane rental costs, and
$168,092.21 in container movement costs to the government. DCAA concluded that AMS’s supply chain management
system is covered by the firm fixed-price effort. According to the contract, the supply chain management program includes
“a viable distribution program for repair parts to each maintenance site (including all required consumables).” As a result,
DCAA disapproved over $570,000 in charges from April 2011 through October 2011. In March 2012, DCAA withheld this
amount from AMS’s reimbursement.
 In October 2012, ACC notified the contractor to demobilize all forward support team sites due to future ANP
18

maintenance plans. As of the date of this report, these sites no longer exist.
19 The Central Maintenance and Supply Facility has two separate inventories on the site. One inventory is for parts to be

used at the maintenance facility, and a separate inventory is for parts being prepared for shipment to AMS sites across
Afghanistan. SIGAR reviewed both inventories.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                          Page 9
ranging from a high of 64.6 percent to a low of 8.3 percent. For 10 of the 12 inventories, we selected a
random sample of inventory line items from FASTRAX and physically verified the accuracy of the inventory
records.20 Table 2 shows the results of our physical inventories at the 10 AMS facilities with FASTRAX.



Table 2 - Projected Results of SIGAR Inventory at Selected AMS Facilities

                                                                                           Percentage of Line
                                Line Items in        Line Items      Line Items Line Items
AMS Facilities                                                                              Items Incorrect or
                                        Stock           Correct        Incorrect   Missing
                                                                                                     Missinga

Central Maintenance Facility             2,821             2,265             385           171                      19.7


Central Supply Facility                  7,777             7,081             696              0                      8.9


Kandahar RMC                             2,290                 972         1,110           208                      57.6


Gardez RMC                               1,814             1,154             632             28                     36.4


Herat RMC                                1,726                 610           797           319                      64.7


Herat RLC                                  672                 434           228             10                     35.4


Kandahar RLC                               508                 466            34              8                      8.3


Gardez RLC                                 453                 399            54              0                     11.9


Helmand SMC                              1,138                 746           356             36                     34.4


Kunduz SMC                                 823                 457           314             52                     44.5


Totals                                 20,022            14,584            4,606           832                      27.2


Source: SIGAR inventories of selected AMS repair facilities.
Notes: aEach sample has a 90-percent confidence with a margin of error of plus or minus 10 percent of the total
line items in stock. This interval would contain the actual population value for 90 percent of the samples we
could have drawn. For the margin of error at each site, see appendix I, table I. We tested the sample to
understand the impact of immaterial inaccuracies on our overall findings. We ruled any inaccuracy constituting
less than 5 percent of the reported inventory and valued at less than $10/unit as immaterial. This resulted in an
average change in our findings of less than one percent (0.22%). As this analysis suggests, immaterial
inaccuracies do not significantly affect or skew the data. We therefore included all inaccuracies, material and
otherwise, in our analysis.




20 Because the Sharana forward support team did not use FASTRAX and did not have an inventory of parts at the site, we

selected a judgment sample of part line items at the forward support team and compared this to AMS’s physical inventory.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                          Page 10
Of the 10 sites at which we selected a random sample, we project that only the Central Supply Facility and the
Kandahar RLC reported more than 90 percent of line items correctly. For the remaining 8 sites, the parts on
the shelves did not match the inventory system. For example, at the Kandahar RMC we project that of the
2,290 line items, 1,110 did not match the inventory system, and 208 could not be found.21 In reviewing each
line item, we found a range of inaccuracies between what was reported in the supply chain management
system and what was counted physically. For example, at the Kandahar RMC we found 148 more fuel hoses
than the reported 118 in the supply chain management system, compared to the Mazar-e-Sharif RMC where
we found only 2 fewer suspension pins than the reported 392.

According to site managers, these inaccuracies were due to multiple reasons, including the relocation of parts,
untimely data input, new manufacturer part numbers, and poor documentation. For example, the Kandahar
RMC site had been physically expanded, which led to the relocation of parts to another area on site. The
Kandahar RMC also supplies parts to other maintenance facilities. At the time of our inventory, the site
manager had not updated the inventory to reflect the new location or those parts set aside for other
maintenance facilities. In addition, at the Herat RLC and RMC, the inventory system was likely not updated to
reflect part transfers between the two facilities. At the Kunduz SMC, we required the assistance of the parts
manager to locate a part due to a change in the part number by the manufacturer. Although we found the part,
this change was not reflected in the site’s inventory system. At the Helmand SMC, we project that of the 1,138
line items, 356 did not match the inventory system and 36 could not be found. At this site, most actual stock
differed from the FASTRAX system by a single item. The supply chain manager at this facility stated that such
discrepancies were due to mechanics requesting the wrong parts and later returning incorrect parts to the
shelves without revising the corresponding line items in the inventory system.
For inaccurate and missing line items where we had cost data, the average value of the parts were $48.76 and
$20.59, respectively. According to CSTC-A, AMS has additional internal controls in place for some high-risk
items. For example, AMS began serializing batteries to prevent the ANP from switching batteries by putting an
old battery in the vehicle after receiving a new one from AMS. In addition, AMS destroys used batteries and
tires to prevent their reuse or resale once removed from a vehicle. Other high-risk parts are kept in separate
secured areas that are accessible to only a few individuals to prevent items from being stolen. In Herat RMC,
for example, transmissions, starters, and alternators were secured separately from other parts. In Kandahar
RMC, parts at high-risk, as determined by the site manager, were kept in a secured cage with access available
only to the site manager, parts manager, and his assistant.
At Mazar-e-Sharif RMC we were able to select a random sample and found that 39.4 percent of selected line
items were either missing or incorrect. However, due to a file submission error by the contractor, we were
unable to project these results. Because the Sharana forward support team did not have an onsite
computerized or manual inventory system, at this site we selected a non-statistical sample of 23 line items
from the shelves. We compared our inventory of the 23 line items to data later obtained from the off-site parts
records located at the Ghazni SMC and found that 8 items matched FASTRAX and 15 items did not.


U.S. GOVERNMENT OVERSIGHT AND RECORDS COULD BE ENHANCED

In April 2011, DCMA identified the AMS contract as a moderate-risk contract, which requires one monthly audit
per site by either a COR or a DCMA QAR. Based on our reviews of DCMA records and COR reports, these
monthly site visits did not always occur. Of the 453 COR reports required between April 2011 and August 2012,



21 We are 90-percent confident, with a margin of error of plus or minus 10 percent, of the total line items in stock. This

range would contain the actual population value for 90 percent of the samples we could have drawn.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                          Page 11
121 reports (27 percent) were missing. One site did not receive any COR oversight, two sites did not receive
any COR oversight until June and July 2012, and additional sites had large lapses of time during which no
oversight was reported. When audits did occur, only about half involved an actual site visit, with the other half
being done as a desk audit by phone or email, or by an alibi report, stating that the contractor could not be
reached. Four sites received oversight, but not through a COR visit.
According to DCMA, when conducting oversight, the preferred method of surveillance is a site visit by a COR.
Of the 453 required COR audits between April 2011 and August 2012, 170 (38 percent) were site visits.
However, based on the challenges and restrictions of travel in Afghanistan, DCMA allows “desk” audits and
“alibi” reports. Desk audits are performed from the COR’s or QAR’s location by phone or email for remote
locations where personnel are often delayed and can be stranded for days awaiting transportation. SIGAR
found 121 (27 percent) of required audits were desk audits. When the necessary contractor personnel cannot
be reached to perform a desk audit, DCMA requires that the COR submit an alibi report to explain why an audit
was not conducted. While 41 (9 percent) of required audits were alibi audits, many lacked adequate
justification for conducting an alibi audit versus a site or desk audit. SIGAR reviewed 23 alibi audits conducted
from January to August 2012. Many of these audits noted security and logistic constraints as to why a site visit
could not be performed, but only five indicated an effort to contact the contractor to conduct a desk audit. For
example, one COR made multiple attempts to conduct the March 2012 site review of Mazar-e-Sharif RMC, but
travel was cancelled because of logistics and security concerns, and he indicated that he could not conduct a
desk audit because AMS officials were not available to provide data.
DCMA and COR reports have noted the challenges in conducting site visits. For example, at the Fayzabad
SMC, the COR consistently reported that he was unable to visit the site due to logistics constraints and could,
therefore, only perform desk audits. In April 2012, the COR for the Maymana SMC could not arrange security
to conduct a site visit and was told by the military that the security risk was too high for the COR and military
personnel to conduct a site visit. Figure 5 shows a summary of our review of COR reports.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                Page 12
Figure 5 - COR Reports Performed, by Type




Source: SIGAR review of COR reports from April 2011 to August 2012

In addition, both CSTC-A and DCMA were unaware of three AMS forward support team sites in Khost, Pol-e-
Khomri, and Juno. The Khost and Pol-e-Khomri forward support teams are sites in the original contract, while
the Juno forward support team was established in October 2011. When we contacted both the DCMA QAR and
CSTC-A’s lead COR in May 2012, they were not aware of these sites. Therefore, the first time these sites
received oversight was June 2012, when Juno received a desk audit. Furthermore, several sites received little
or no oversight for extended periods. For example, from July 2011 through August 2012, the Jalalabad RMC
received no COR oversight. In addition, the Herat RMC lacked COR oversight between December 2011 and
July 2012.
IJC and CSTC-A are responsible for maintaining continuous COR oversight coverage at the points of execution.
According to CSTC-A, IJC is required to conduct audits at RLCs, SMCs, and forward support teams, and CSTC-A
is required to provide CORs for RMCs and the Central Maintenance and Supply Facility. However, not all sites



SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                          Page 13
have had continuous coverage, and some sites previously received no COR oversight. According to CSTC-A, as
of November 2012, IJC is responsible for providing CORs for 12 sites, but has only provided CORs for two.
CSTC-A has been supplying CORs, but many of these CORs are located throughout the country, creating
additional logistics and movement constraints to conduct a site visit. This level of coverage is consistent with
the level of assistance IJC has provided CSTC-A since the contract’s inception. IJC officials said they did not
meet CSTC-A’s request for COR coverage for several reasons: (1) ISAF has never ordered IJC to meet CSTC-A’s
request; (2) IJC does not own the contract, especially in locations where other coalition partners maintain
command; and (3) visiting several remote AMS service centers, especially in the North and Southwest, requires
an unacceptable level of effort and exposure to danger. In addition, IJC officials noted that the rapid closure of
IJC bases throughout Afghanistan makes it highly unlikely that IJC will ever meet CSTC-A’s request for COR
coverage.
In commenting on a draft of this report, CSTC-A noted that DCMA has assigned two Government Technical
Product Representatives to work alongside CSTC-A and the primary COR in order to track all audits. In addition,
the Government Technical Product Representatives will train and direct all CORs. In the case a desk audit is
not possible, the COR will inform DCMA that no audit was conducted and include justification as to why.


CONCLUSION

Because ACC and CSTC-A did not adjust the contract to more accurately reflect the current vehicle servicing
needs of the ANP, approximately $6.8 million was spent from April 2011 to September 2012 on vehicles that
had not been seen for maintenance in over a year, had never been seen for service, or had been destroyed.
Unless ACC and CSTC-A revise the density list to account for such vehicles, they risk wasting additional funds
on such vehicles. Furthermore, future option years peg CSTC-A to minimum vehicle maintenance rates that
may be more than what is required. Unless flexibility is provided in future option years, CSTC-A is likely to pay
for servicing more vehicles than what is required.
AMS appears to have performed maintenance services and billed for the fixed-price and reimbursable aspects
of the contract in accordance with the contract’s terms and conditions. However, SIGAR found that spare part
line items were inaccurate at the sites visited. In addition, unless the government takes steps to identify and
seek reimbursement for parts broken under the contractor’s care, it risks wasting additional funds.
Furthermore, CSTC-A may not have reasonable assurance that AMS is providing the goods and services within
the terms of the maintenance contract due to variations in contract oversight. Specifically, some sites lacked
COR oversight for several months, and DCMA and CSTC-A were previously unaware that three sites received no
oversight.


RECOMMENDATIONS

To allow DOD the flexibility to adjust the contract price to the density list, we recommend that the Commanding
General, CSTC-A in coordination with the Commanding General, U.S. Army Contracting Command:

    1. Establish formal criteria for when vehicles are added and removed from the density list, and revise the
       density list accordingly.
    2. Adjust the base rate for future option years as a result of the removal of vehicles from the density list.
To assure the integrity of AMS’s spare parts inventory, we recommend that the Commanding General, CSTC-A
in coordination with the Commanding General, U.S. Army Contracting Command:




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                Page 14
    3. Require AMS to conduct a 100-percent inventory of spare parts at each of its service centers in
       Afghanistan and report to CSTC-A on the results of this inventory.
    4. Require that CORs, after the completion of AMS’s 100-percent inventory, implement procedures that
       periodically test the accuracy of AMS’s inventory and report deficiencies to ensure that AMS takes
       corrective action to improve inventory management.

    5. Identify spare parts broken by the contractor and seek reimbursement for those parts.
To assure that oversight is performed and documented accordingly, we recommend that the Commanding
General, CSTC-A, in coordination with the Commander, Defense Contract Management Agency Afghanistan:
    6. Require their personnel to review COR reports to ensure that CORs conduct an audit at each AMS
       service center every month, while recognizing that a number of monthly audits may be desk audits or
       alibi reports because of logistic and security considerations.
    7. Require their personnel to include the reasons why a desk audit was not conducted when preparing
       alibi reports.


AGENCY COMMENTS

CSTC-A, in coordination with ACC, provided written comments on a draft of this report. These comments are
reproduced in appendix IV. DCMA Afghanistan provided technical comments, which we incorporated into this
final report, as appropriate. CSTC-A concurred with all seven recommendations.
For recommendation 1, CSTC-A noted it would establish formal criteria for when vehicles are added and
removed from the density list and that it would incorporate the new criteria in option year 2 of the contract
which began on December 30, 2012.
For recommendation 2, CSTC-A noted it had adjusted the base rate for future years as a result of the removal
of vehicles from the density list. Specifically, CSTC-A has removed 7,324 vehicles from the density list based
on the new criteria, saving the government approximately $5.5 million per year.
Regarding recommendation 3, CSTC-A noted that AMS is in the process of conducting a 100-percent inventory
of spare parts at each of its centers with an anticipated completion of January 31, 2013.
Regarding recommendation 4, CSTC-A stated it has implemented several actions to improve inventory
management. Specifically, CSTC-A noted that the COR, in conjunction with DCMA, will require that monthly
audits incorporate a 10-percent inventory list of all warehouse items, verify these items and their quantities,
and conduct maintenance location checks.
For recommendation 5, CSTC-A stated that for broken spare parts, the CO directed AMS to develop written
internal control measures for the accountability and disposition of damaged spare parts. Following the 100-
percent AMS inventory, CSTC-A and DCMA plan to work with ACC to request monetary consideration for broken
spare parts.
Regarding recommendation 6, to improve oversight, CSTC-A noted DCMA has assigned two Government
Technical Product Representatives to work alongside CSTC-A and PCOR to track all audits.
For recommendation 7, CSTC-A stated that in cases where a desk audit is not possible, the COR will inform
DCMA that no audit was conducted and include justification as to why no audit was conducted. In addition, the
Government Technical Product Representatives will train and direct all CORs.
In its technical comments, DCMA concurred with recommendations 6 and 7 to improve oversight of CORs and
to assist CSTC-A where possible in executing their responsibilities.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                               Page 15
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan Reconstruction’s
(SIGAR) review of contract W52P1J-11-C-0014 awarded to Automotive Management Services, FZE (AMS), to
provide vehicle maintenance services to the Afghan National Police (ANP). We initiated this audit to determine
whether the government is paying an appropriate amount for contracted services it requires; the contractor
performed within the terms and conditions of the contract, and whether DOD agencies are providing effective
oversight of the contract.
Overall, to address these objectives, we met with officials from the U.S. Army Contracting Command (ACC),
Defense Contract Management Agency (DCMA), Defense Contract Audit Agency (DCAA), CSTC-A, IJC, and AMS;
conducted site visits at 11 locations of AMS maintenance facilities throughout Afghanistan; examined contract
documentation, contractor billings, inventory and production reports, DCMA COR reports; and CSTC-A vehicle
density lists.
To determine the level of ANP usage of the contract and the number of vehicles never seen by the contractor
or confirmed destroyed, we compared the list of authorized vehicles called the “density list” from both CSTC-A
and ACC to contractor records. For each vehicle, we identified whether a vehicle had been seen within the past
3 months, seen within 3-6 months, seen within 6-12 months, not seen in over a year, never seen by the
contractor, or confirmed destroyed by the contractor. Based on the September 2012 density list, we conducted
a statistical analysis of the vehicles that had not been seen in over a year.22 Based on this review, we project
that over 50 percent of these had not been seen since April 2011, the start of the Afghanistan Technical
Equipment and Maintenance Program contract.23 In addition, we conducted a statistical analysis for all
vehicles in the September 2012 density list and found that, on average, it had been about 7 months since
vehicles were last seen for service. Once we established the number of vehicles that had not been seen in
over a year, had never been seen, or had been destroyed, we subtracted these vehicles from the density list to
determine whether this would affect the firm fixed-price rate under the contract. We then compared the revised
density list numbers to the contract’s pricing structure to determine the monthly price based on these revised
density list numbers.
To determine whether AMS charges to the contract were within the terms and conditions of the contract, we
selected a judgmental sample of the five largest spare parts invoices charged against the base year of the
contract. This provided us with $26.5 million of the total $33 million or 80 percent of base year obligations for
spare parts. For each invoice, we requested payment and shipping documentation from CSTC-A and AMS. For
each invoice, we verified that both AMS and the vendor charged the correct amount. On vendor invoices to
AMS, we verified that the quantities and prices of each item were calculated accurately. Once we verified the
vendor charges to AMS, we combined these invoices to ensure that the price charged to the government was
the same that was charged to AMS. Because DCAA had conducted a review of disapproved transportation
costs, we did not include these in our review.
To determine AMS’s ability to accurately track spare parts purchased under the contract, we conducted site
visits to the Central Maintenance and Supply Facility and 10 other contractor facilities. At these facilities, we
conducted inventories of spare part line items by using AMS’s supply chain management system to identify line
items reported in stock at the time of our visit. We selected a statistical random sample of individual line items



22   We drew this sample at a 95-percent confidence level, with a margin of error of plus or minus 10 percent.
23   AMS data also includes information from a previous maintenance contract.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                      Page 16
at each facility using a 90-percent confidence level with a 10-percent margin of error. Table I shows the
number of line items selected and the total number of line items in stock at the time of our inventory.

                    Table I - Number of Lines Items Selected

                                                    Line items (selected based     Line items
                     AMS Facilities
                                                    on sampling methodology)        in stock


                     Central Maintenance Facility                 66                    2,821


                     Central Supply Facility                      67                    7,777


                     Kandahar RMC                                 66                    2,290


                     Gardez RMC                                   66                    1,814


                     Herat RMC                                    65                    1,726


                     Herat RLC                                    62                      672


                     Kandahar RLC                                 60                      508


                     Gardez RLC                                   59                      453


                     Helmand SMC                                  64                    1,138


                     Kunduz SMC                                   63                      823

                     Source: SIGAR inventories of selected AMS repair facilities


When analyzing the data, we considered materiality as a factor. Specifically, to understand the impact of
materiality on our findings for this audit, we used our professional judgment to test the sample using a 5-
percent variance (physical count as a proportion of inventory system-reported count) threshold and a $10 unit
cost threshold. In this test, any inaccuracies in our sample found to constitute less than 5 percent of the
reported inventory and valued at less than $10 per unit were excluded from our data analysis. The immaterial
inaccuracies were not significant individually or in aggregate. The exclusion of all immaterial inaccuracies from
our sample resulted in a 0.22-percent average change in inventory underage across all facilities. Given this,
and particularly considering the 10-percent margin of error of our samples, we determined that analyzing the
full data set, to include all immaterial inaccuracies, would clearly capture our finding without unreasonably
skewing the data. Therefore, all quantitative analysis in this report relies on the full data set and is not
adjusted for materiality.
We note the following three caveats to the data presented within the report. First, the sample gathered at
Herat RLC had a greater proportion of immaterial inaccuracies than any other location. Second, we were
unable to draw a statistical random sample at Mazar-e-Sharif RMC because a file submission error by the
contractor resulted in our conducting the site visit without a complete inventory stock list. Lastly, the sample
gathered at Sharana forward support team did not have an on-site supply chain management system from
which we could draw a statistical random sample of inventory line items. Instead, we selected parts from the
forward support team’s shelves and verified the count against the computerized inventory for Sharana forward
support team, which we later obtained from its location at Ghazni SMC.



SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                              Page 17
To determine the level of COR oversight, we reviewed all DCMA COR and QAR records. We identified the
number of sites in existence on a monthly basis and identified which sites had records of COR oversight. In
addition, we compared the number of COR reports to DCMA summary data of the COR reports done each
month. We also interviewed CTSC-A and IJC officials to understand the issues surrounding COR oversight.
We used computer-processed data from the contractor’s inventory management system to perform the audit.
We obtained inventory reports produced by the system to identify spare parts inventory levels. We tested the
accuracy of the data in the reports generated by the system by performing physical inventories. The results of
our inventory testing indicated that the inventory data was inaccurate. In addition, we relied on computer-
processed data from the contractor’s records to identify the status of vehicles. For some months, we found
that the contractor’s data had vehicles that were not listed on the official density lists. To account for this
discrepancy, we reconciled the contractor’s data with CSTC-A’s official vehicle density lists. Beginning with the
April 2012 density list, CSTC-A included vehicle status with the official density list.
We conducted our work in Kabul, Kandahar, Balkh, Helmand, Kunduz, Paktika, Gardez, and Herat provinces in
Afghanistan from January 2012 to December 2012 in accordance with generally accepted government
auditing standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. This audit was conducted under the authority of Public Law No. 110-181, as
amended, the Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                               Page 18
APPENDIX II - SUMMARY OF MODIFICATIONS TO ANP A-TEMP CONTRACT
W52P1J-11-C-0014

Table II - Summary of Modifications to ANP A-TEMP Contract W52P1J-11-C-0014
Modification                                  Cost
                          Date                                                             Description
 Number                                      Change

Base              December 30, 2010         $24,210,510    Funds the initial service centers, the relocation of the facilities to the
                                                           Central Maintenance and Supply Facility, and the purchase of spare parts.

Mod 1             March 22, 2011              -$956,504    Deobligates funds to facilitate movement of funds.

Mod 2             April 20, 2011               $956,504    Adds and funds six contact teams, two forward support teams, and one
                                                           Regional Maintenance Center and updates contract language.

Mod 3             April 27, 2011                      $0   Changes the address of the contract paying office.

Mod 4             May 23, 2011              $18,983,078    Fully funds base year and adds and funds two additional contact teams.

Mod 5             July 21, 2011                $625,018    Increases funding for spare parts and updates to contract language.



Mod 6             August 3, 2011                      $0   Updates contract language.

Mod 7             August 18, 2011           $21,540,438    Funds a 10-percent density surge and updates contract language.



Mod 8             October 24, 2011             $604,526    Funds a 5-percent density surge, adds and funds one additional forward
                                                           support team, and updates contract language.

Mod 9             November 28, 2011             $48,335    Adds and funds one additional contact team.

Mod 10            December 29, 2011         $21,160,274    Exercises and funds the first option year.



Mod 11            February 21, 2012                   $0   Reallocates funding among contract line items, accelerates the purchase
                                                           of spare parts due to logistical issues, and updates contract language and
                                                           attachments.

Mod 12            March 19, 2012                      $0   Updates contract language and attachments.


Mod 13            April 27, 2012            $56,651,692    Fully funds option year 1, funds a 5-percent density surge, increases
                                                           monthly spare parts budget, and updates contract language and
                                                           attachments.

Mod 14            May 9, 2012                         $0   Transfers purchasing office responsibility.


Mod 15            May 31, 2012               $2,445,131    Corrects and funds the previous 5-percent density surge in Mod 13 to a
                                                           15-percent density surge.

Mod 16            N/A                                 $0   Cancelled.


Mod 17            September 27, 2012         $1,014,217    Funds a 5-percent density surge.


Source: SIGAR Analysis of contract W52P1J-11-C-0014



SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                                    Page 19
APPENDIX III - AMS MAINTENANCE LEVELS AND SITES AS OF NOVEMBER
2012

Table III - AMS Maintenance Levels and Sites as of November 2012

  Maintenance
                                         Description                                             Sites
    Levels


Organizational     Organizational level facilities conduct maintenance that     Regional Logistics        Satellite Maintenance
                   generally requires less than 12 man-hours at the             Center (RLC)              Center (SMC) Bamiyan
                   infantry and combat support level and an additional 24       Kandahar
                                                                                                          SMC Farah
                   hours for maintenance actions evacuated to the service
                                                                                RLC Mazar-e-Sharif
                   support level. Maintenance is performed by personnel                                   SMC Fayzabad
                   using common tools and includes preventative                 RLC Gardez
                                                                                                          SMC Ghazni
                   maintenance, minor repairs, adjustments, and quick
                   replacement of repair parts (starters, radiators,                                      SMC Helmand
                   alternators, tires, and brakes). In addition,                                          SMC Kunduz
                   organizational level maintenance includes replacement
                                                                                                          SMC Maymana
                   of minor damaged body parts (bumpers, mirrors,
                   windows, and small body panels).                                                       SMC Uruzgan
                                                                                                          SMC Wardak


General            General level facilities support regional units where        RLC Herat                 Regional
                   repairs require a more in-depth level of maintenance                                   Maintenance Center
                   than Organizational Level, but less than 36 repair man-                                (RMC) Gardez
                   hours to complete. Maintenance is performed by
                                                                                                          RMC Herat
                   skilled and semi-skilled personnel using a broad range
                   of tools and equipment. Maintenance includes                                           RMC Jalalabad
                   troubleshooting, testing, diagnosis, and repair of                                     RMC Kandahar
                   vehicles and other complex equipment. General level
                   support facilities also repair major assemblies (engines,                              RMC Mazar-e-Sharif
                   transmissions, axles, and differentials). These facilities
                   also provide in-depth body shop repairs and complete
                   repainting of equipment.


National (Depot)   The National level facility conducts time consuming          Central Maintenance and Supply Facility
                   repairs and requires the use of machine tools, test          Kabul
                   equipment, heavy lifting and specialized facilities.
                   Repairs require advanced mechanical skill levels with
                   specialized training including component rebuild,
                   overhaul of components and major assemblies, and
                   over of complete equipment pieces.


Total Sites                                                                                          19

Source: SIGAR analysis of Performance Work Statement and AMS documentation.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance                                                       Page 20
APPENDIX IV - AGENCY COMMENTS




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance   Page 21
SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance   Page 22
SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance   Page 23
APPENDIX V - ACKNOWLEDGMENTS

Bruce Gimbel, Senior Audit Manager
Daniel Chen, Analyst-in-Charge
Adriel Harari, Senior Auditor
Jeffrey Itell, Senior Program Analyst


The following staff assisted with fieldwork:
Paul Kennedy, Senior Auditor
Emmitt Candler, Auditor


The following staff provided analytical support:
Mia Bonarski, Methodologist




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance   Page 24
                             This audit report was conducted under
                                   project code SIGAR-052A.




SIGAR Audit 13-3/Afghan National Police Vehicle Maintenance          Page 25
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
